Audit Report




OIG-09-048
CDFI Fund Contract Administration and Personnel Management
Practices Need Improvement
September 17, 2009




Office of
Inspector General
Department of the Treasury
Audit Report         .......................................................................................... 3

  Background        … ....................................................................................... 4

  Findings and Recommendations .................................................................... 6

  Key Contract Administration and Decision Documentation Was Missing ............ . 6

  Personnel Management Practices Were Inadequate ......................................... 10

Appendices

  Appendix   1:      Objective, Scope, and Methodology ........................................              14
  Appendix   2:      Management Response .........................................................           15
  Appendix   3:      Major Contributors to This Report ...........................................           18
  Appendix   4:      Report Distribution ................................................................    19

Abbreviations

  ARC                Bureau of the Public Debt’s Administrative Resource Center
  BPD                Bureau of the Public Debt
  CDE                Community development entity
  CDFI               Community development financial institution
  COTR               Contracting officer technical representative
  DTAR               Department of the Treasury Acquisition Regulation
  FAR                Federal Acquisition Regulation
  Fund               Community Development Financial Institutions Fund




                     CDFI Fund Contract Administration and Personnel Management Practices                Page 1
                     Need Improvement (OIG-09-048)
        This Page Intentionally Left Blank.




CDFI Fund Contract Administration and Personnel Management Practices   Page 2
Need Improvement (OIG-09-048)
                                                                             Audit
OIG
The Department of the Treasury
                                                                             Report
Office of Inspector General




                  September 17, 2009

                  Donna J. Gambrell, Director
                  Community Development Financial Institutions Fund

                  We performed an audit of the procurement process that the
                  Community Development Financial Institutions Fund (Fund) used
                  for its information technology (IT) development and support
                  contracts, currently valued at approximately $19 million. The
                  objective of this audit, conducted at the request of the Fund
                  Director, was to determine whether the Fund’s contract
                  administration practices for its IT development and support
                  contracts with General Dynamics and Kearney & Company
                  complied with the Federal Acquisition Regulation (FAR) and the
                  Department of the Treasury Acquisition Regulation (DTAR).
                  During our audit, we also became aware of a possible deficiency
                  related to the Fund’s personnel management practices and
                  expanded our review to cover that matter. Our objective, scope,
                  and methodology are described in more detail in appendix 1.

                  In brief, we found that the Fund did not comply with FAR and
                  DTAR requirements in its administration of the General
                  Dynamics IT support contracts. The Fund, however, did
                  properly administer the smaller Kearney & Company contract.
                  With respect to personnel management practices, we found the
                  Fund did not document its justification for a noncompetitive
                  promotion of a Fund employee from GS-13 to GS-14 in July
                  2006, and was unable to provide us with the employee’s
                  related position description during our review.

                  In July 2008, we issued a memorandum to the Fund Director
                  regarding FAR requirements for exercising contract options. We
                  issued this memorandum because of our concerns with the
                  Fund’s deficient contract administration documentation and the

                  CDFI Fund Contract Administration and Personnel Management Practices   Page 3
                  Need Improvement (OIG-09-048)
                      fact that the option period for the General Dynamics contract
                      was set to expire in September 2008. Accordingly, the Fund
                      needed to either exercise the next option under its contract with
                      General Dynamics or solicit a new contract. In our
                      memorandum, we advised the Fund that if the decision was to
                      exercise the option, it should work with the contracting office
                      to ensure that a written determination was prepared to
                      document that exercising the option was the most
                      advantageous method of fulfilling the government’s needs. The
                      Fund subsequently exercised its option with General Dynamics
                      in September 2008. However, the Fund did not prepare a
                      written determination that this was the most advantageous
                      course of action. The lack of a written determination was
                      particularly surprising to us in light of our memorandum. It also
                      calls attention to a pattern at the Fund of not following
                      procurement requirements. 1 Accordingly, we believe that
                      contract administration is an area that requires heightened and
                      continued attention by the Fund’s senior management.

                      In a written response, the Fund Director concurred with the six
                      recommendations we are making in this report and
                      management’s planned corrective actions are responsive to the
                      recommendations. The response is included as appendix 2.


Background
                      The Fund is a government corporation housed within the
                      Department of the Treasury. It promotes economic revitalization
                      and community development through investments in and
                      assistance to community development financial institutions
                      (CDFIs). The Fund provides competitive grants, loans, and tax
                      credit allocations to CDFIs and community development entities
                      (CDEs) that meet the Fund’s criteria. From its creation in 1994
                      through the end of fiscal year 2008, the Fund has awarded
                      $949 million to community development organizations and

1
 In October 2000, we reported on deficiencies related to consultant contracts going back to 1996,
as well as the contract vehicle used to procure services from an accounting firm (OIG, Procurement
Practices at the Community Development Financial Institutions Fund, OIG-01-012, Oct. 17, 2000).
These matters were also the subject of a June 1998 congressional report.

                      CDFI Fund Contract Administration and Personnel Management Practices      Page 4
                      Need Improvement (OIG-09-048)
 financial institutions and $19.5 billion in allocations of New
 Markets Tax Credits to attract private-sector investments in
 low-income communities.

 The Fund’s current contract with General Dynamics, valued at
 about $2.7 million a year, represents approximately 20 percent
 of the Fund’s $13.7 million fiscal year 2008 annual
 administrative operating budget. Table 1 shows the IT support
 contracts issued to General Dynamics that we reviewed and the
 corresponding outside agencies–the Federal Aviation
 Administration, the General Services Administration, and the
 Department of Commerce–used by the Fund to help meet its
 contracting needs. Although the Fund used these agencies for
 contracting officer services, the Fund was responsible for
 contract administration activities.

Table 1. Contracting Agencies for General Dynamics Contracts
Performance Period     Description                  Contracting Agency1
5/17/99-9/30/03        Base + 4 option years        Federal Aviation Administration
10/1/03-9/18/05        Base + 1 option year         General Services Administration
9/19/05-9/18/07        Base + 4 option years        Department of Commerce2
9/19/07-9/18/10        Option years 2 through 4     General Services Administration
  Source: OIG Analysis
 1
   We also found some evidence that prior to May 1999, the Internal Revenue
 Service provided the Fund with contracting services related to General
 Dynamics.
 2
   The Department of Commerce transferred the contract to the General
 Services Administration in September 2007.

 The Fund obtained the contract with Kearney & Company
 through the Bureau of the Public Debt’s Administrative
 Resource Center (ARC), a component of the Treasury Franchise
 Fund. The contract, a 10-year blanket purchase order
 agreement valued at approximately $3.7 million, requires
 Kearney & Company to design, develop, maintain, and
 administer the Fund’s Community Investment Impact System.
 That system maintains data on CDFIs and CDEs.




 CDFI Fund Contract Administration and Personnel Management Practices        Page 5
 Need Improvement (OIG-09-048)
Findings and Recommendations

Finding 1   Key Contract Administration and Decision
            Documentation Was Missing

            The Fund could not provide documentary evidence supporting
            the contract administration activities performed by Fund
            contracting officer technical representatives (COTRs) for the
            General Dynamics contracts. As a result, the Fund could not
            demonstrate that the contractor provided the services required
            by the contracts. Additionally, the Fund could not provide
            documentation showing how it determined that using three
            different agencies since 1999 (the Federal Aviation
            Administration, the Department of Commerce, and the General
            Services Administration) to perform the contracting officer
            functions for these contracts were in the best interest of the
            government.

            FAR 4.801 requires, among other things, the head of the office
            performing the contract administration function to establish and
            maintain files containing the records of contractual actions
            taken by the office. These files, together with the contracting
            officer’s and paying office files, should constitute a complete
            history of the transaction to provide a basis for informed
            decisions at each step in the acquisition process, support
            actions taken, provide information for reviews and
            investigations, and furnish essential facts in the event of
            litigation or congressional inquiries. FAR 4.803(b) provides the
            following examples of records normally contained in the
            contract administration file:

                •   A copy of the contract and all modifications and originals
                    of the actions executed by the contract administration
                    office;
                •   Documents modifying the normal assignment of the
                    contract administration function and responsibilities;
                •   Security requirements, cost or pricing data, pre-award
                    documents, contractor purchasing system information,



            CDFI Fund Contract Administration and Personnel Management Practices   Page 6
            Need Improvement (OIG-09-048)
                                consent to subcontract, performance bonds and other
                                surety information;
                            •   Post-award documents such as conferences and
                                meetings, orders issued, notices to proceed and stop
                                orders, insurance information, and other post contract
                                documents;
                            •   Quality assurance and surveillance plans, property
                                administration records, and other monitoring documents;
                            •   Contract completion records; and
                            •   Other documents to reflect actions taken by or prepared
                                by the contract administration office including
                                correspondence between the government and the
                                contractor.

                        We initially asked for the contract administration files from the
                        Fund’s former chief information officer (CIO) who was the
                        designated COTR for the General Dynamics contracts. 2 He
                        directed us to two other Fund employees, the acting CIO and
                        the alternate COTR, to obtain the file. After we made numerous
                        and unsuccessful requests for the contract administration files
                        from these two Fund employees, we scheduled a group
                        interview to discuss the status/existence of the files with all
                        three individuals–the former CIO/COTR, the acting CIO, and the
                        alternate COTR. During this meeting, the former CIO/COTR
                        initially stated that he had given the official contract
                        administration file to the Fund’s Finance Manager, who was the
                        supervisor of the alternate COTR. However, the former
                        CIO/COTR later stated that he had given it to the Fund’s records
                        officer for destruction. The acting COTR and the alternate COTR
                        did not comment on the statement. In a separate interview, the
                        Fund’s records officer was unable to confirm whether the COTR
                        files in question were actually destroyed. Further, he stated that
                        he is only responsible for reviewing documents to be destroyed
                        to ensure the proper handling of personally identifiable
                        information. Furthermore, he stated that he is not responsible
                        for determining whether or which documents are to be retained
                        or destroyed.



2
    The former CIO/COTR had been detailed to another federal agency before our audit.

                        CDFI Fund Contract Administration and Personnel Management Practices   Page 7
                        Need Improvement (OIG-09-048)
Because we could not obtain the contract administration files
for the General Dynamics contracts—either because the
documents had been destroyed or were never prepared—we
visited the Federal Aviation Administration, the Department of
Commerce, and the General Services Administration to review
their contracting officers’ files for background and other
pertinent information related to the contracts. These files
contained documentation on matters related to contracting
officers’ actions such as establishing the contract terms and
processing contract modifications. The files we reviewed did
not contain information on contract administration activities or
actions performed by the Fund to support the contracting
officers’ decisions. It should be noted that contracting officers’
files are not intended to and do not replace documentation
required to be maintained by COTRs, especially when
contracting officer and contract administration duties are
performed by separate entities.

Without the contract administration files, the Fund could not
support decisions affecting (1) whether deliverables outlined in
the contracts had been met or (2) whether invoices had been
appropriately reviewed and approved. In this case, the Fund
could not demonstrate that $19 million in contract dollars for IT
support services from General Dynamics were spent responsibly
during the 9 year period from 1999 to 2008.

In addition to the contract administration documentation
requirements of FAR 4.803(b), FAR 17.503 requires agencies
that obtain supplies or services by interagency acquisition
prepare a determination and findings document to support such
decisions and demonstrate that the interagency agreement is in
the best interest of the government. The Fund did not prepare
the documentation supporting its decision to use the three
outside agencies for IT support contracting services.




CDFI Fund Contract Administration and Personnel Management Practices   Page 8
Need Improvement (OIG-09-048)
Recommendations

We recommend that the Fund Director do the following:

1. Reconstruct and maintain, going forward, the contract
   administration file for the General Dynamics contracts with
   all required and pertinent documentation.

2. Ensure that Fund COTRs adequately monitor contract
   performance, support contracting officers, and maintain
   contract administration files that document actions taken to
   fulfill contract administration responsibilities.

3. Develop and implement standard operating procedures that
   specify required policies and procedures for contract
   administration and related files, including appropriate
   managerial controls to comply with FAR requirements for file
   documentation.

4. Ensure that decisions to use interagency agreements are
   supported by the appropriate determination and finding in
   accordance with the FAR to demonstrate that using non-
   Treasury sources for the contract officer functions is in the
   best interest of the government.

Management Response

The Fund established a contract administration file in May
2009, with pertinent General Dynamic’s contracts documents
and implemented processes and procedures for the COTR to
monitor contract performance. The Fund is also developing
standard operating procedures for contract administration and
related files to include appropriate managerial controls in
accordance with FAR requirements and implemented processes
for determining contracting officer sources and subsequent
justification if the need for using non-Treasury contracting
officer sources is required. The implementation date to complete
planned corrective actions is March 2010.




CDFI Fund Contract Administration and Personnel Management Practices   Page 9
Need Improvement (OIG-09-048)
                         OIG Comment

                         Management’s corrective action taken and planned is
                         responsive to the intent of our recommendation.

Finding 2                Personnel Management Practices Were Inadequate

                         The Fund did not document its justification of a noncompetitive
                         promotion of a Fund contract specialist from GS-13 to GS-14 in
                         July 2006. Additionally, there was no position description for
                         this position. When properly used, the noncompetitive
                         promotion process allows agencies to promote an employee
                         who has performed additional duties and responsibilities not
                         normally required in the employee’s current position description.
                         In this instance, the Fund did not document its rationale for
                         promoting the employee in question, nor did it identify those
                         extra duties and responsibilities that the employee had
                         performed in addition to his normal duties and responsibilities.

                         Federal personnel law states, that an agency shall place each
                         position under its jurisdiction in its appropriate class and grade
                         in conformance with standards published by the Office of
                         Personnel Management (OPM). When facts warrant, the agency
                         may change a position to another class or grade. 3 According to
                         personnel regulations, an agency may promote an employee, at
                         its discretion and without using a competitive action, when an
                         employee performs additional duties and responsibilities beyond
                         those identified in his or her current position and a classification
                         to a higher grade. 4 This process is commonly referred to as an
                         accretion of duties.

                         Because of the problems we found with contract administration
                         by the Fund’s COTRs on the IT contracts, we sought to review
                         their position descriptions to ensure that their COTR
                         responsibilities and job expectations were properly and
                         appropriately documented. One of the three COTRs, who was a
                         contract specialist, did not have a position description in either

3
    5 USC § 5107.
4
    5 CFR § 335.103(c)(3)(ii).

                         CDFI Fund Contract Administration and Personnel Management Practices   Page 10
                         Need Improvement (OIG-09-048)
                       the Fund’s physical personnel files or in HRConnect, Treasury’s
                       human resource (HR) information system which is managed by
                       ARC. 5 The Fund uses ARC as well as Treasury Departmental
                       Offices human resources employees to process personnel
                       actions.

                       Our interviews of Fund, Departmental Offices, and ARC
                       employees and our review of other personnel documents
                       revealed a lack of accountability and responsibility for the
                       promotion process in this instance. Files maintained by the Fund
                       lacked documentation for (1) the position description for the
                       contract specialist and (2) justification for his promotion from
                       GS-13 to GS-14 through the accretion of duties process. The
                       immediate supervisor who promoted the employee in July 2006
                       stated he was told that the employee’s position was at the GS-
                       13/14 level. He said that he was unaware that the employee
                       was not in a GS-13/14 position description until our audit and
                       was surprised to find out there was no position description for
                       the employee at the GS-14 level.

                       According to a personnel specialist with Departmental Offices,
                       the immediate supervisor provided a partially signed transmittal
                       letter for the accretion of duties promotion without the
                       supporting position description documentation to justify or
                       measure how the employee exceeded his current
                       responsibilities. Separately, the ARC human resources specialist
                       we interviewed was not sure why ARC had accepted the
                       document without the necessary Fund justification for the
                       promotion and stated that the practice was inconsistent with
                       the normal process. She informed us that the ARC could not
                       locate the GS-14 position description that included the narrative
                       duties for the class and grade in either HRConnect or paper
                       master files.

                       The purpose of a position description is to identify and formalize
                       employee duties and responsibilities. It also provides a basis for

5
 In addition to contracting support services, ARC provides human resources functions such as HR
support personnel actions processing and recordkeeping, pay and leave administration, staff
acquisition and position classification, labor and employee relations, employee benefits and awards,
workers' compensation, and personnel security to Treasury and non-Treasury bureaus and offices.

                       CDFI Fund Contract Administration and Personnel Management Practices      Page 11
                       Need Improvement (OIG-09-048)
managing personnel actions such as recruitment, placement,
compensation, training, reassignment, and promotion. Each
agency is responsible for managing positions, people, and
processes. Without official position descriptions, accountability
is weakened and any promotion or other personnel action may
appear inappropriate and unjustified.

Recommendations

We recommend that the Fund Director do the following:

1. Implement appropriate management controls to ensure that
   non-competitive promotions are properly documented,
   justified, and approved.

2. Ensure that all Fund employees have valid position
   descriptions in their official personnel files.

Management Response

The Fund conducted an extensive evaluation of all position
descriptions to ensure that this was an isolated incident. All
Fund employees have position descriptions in their official
personnel folder. The Fund now posts all non-career ladder
promotions through Treasury Career Connector system to
enable employees to apply internally.

OIG Comment

Management’s corrective action is responsive to the intent of
our recommendations.




CDFI Fund Contract Administration and Personnel Management Practices   Page 12
Need Improvement (OIG-09-048)
                                 ******

We appreciate the courtesies and cooperation extended to our
staff during this audit. The major contributors to this report are
listed in appendix 3. If you have any questions, please contact
me at (202) 927-5400.

/s/
Kieu T. Rubb
Director, Manufacturing and Procurement Audits




CDFI Fund Contract Administration and Personnel Management Practices   Page 13
Need Improvement (OIG-09-048)
Appendix 1
Objective, Scope, and Methodology




The objective of our audit was to determine whether the
Community Development Financial Institutions Fund’s contract
actions and contracting practices for information technology
development and support comply with the Federal Acquisition
Regulation (FAR) and the Department of the Treasury Acquisition
Regulation (DTAR). During our audit we also noted deficiencies
related to personnel management, and we expanded our review to
cover those practices.

To accomplish these objectives, we visited the General Services
Administration office in Kansas City, Missouri, and the Federal
Aviation Administration office in Washington, DC. We reviewed
four major contracts held by the Fund–the three most recent
General Dynamics contracts with a total value of $23.5 million and
covering the period from May 17, 1999, to September, 18, 2010,
and the Kearny & Company contract valued at $3.7 million
covering the period from January 1, 2003, to April 4, 2010. We
also reviewed related laws, FAR, DTAR, and applicable
procurement and personnel policies and procedures. Furthermore,
we interviewed Fund, Departmental Offices, and Bureau of the
Public Debt’s Administrative Resource Center employees.

We conducted our fieldwork primarily from February to November
2008 and performed additional fieldwork in April 2009. We
conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.




CDFI Fund Contract Administration and Personnel Management Practices   Page 14
Need Improvement (OIG-09-048)
Appendix 2
Management Response




CDFI Fund Contract Administration and Personnel Management Practices   Page 15
Need Improvement (OIG-09-048)
Appendix 2
Management Response




CDFI Fund Contract Administration and Personnel Management Practices   Page 16
Need Improvement (OIG-09-048)
Appendix 2
Management Response




CDFI Fund Contract Administration and Personnel Management Practices   Page 17
Need Improvement (OIG-09-048)
Appendix 3
Major Contributors to This Report




Kieu T. Rubb, Director, Manufacturing and Procurement Audits
Cynthia S. Milanez, Audit Manager
Chereeka Straker, Auditor-In-Charge
Maurice George, Auditor
Myung G. Han, Referencer




CDFI Fund Contract Administration and Personnel Management Practices   Page 18
Need Improvement (OIG-09-048)
Appendix 4
Report Distribution




The Department of the Treasury

    Deputy Secretary
    Director, Community Development Financial Institutions
    Office of Strategic Planning and Evaluations
    Office of Accounting and Internal Control

Office of Management and Budget

    OIG Budget Examiner




CDFI Fund Contract Administration and Personnel Management Practices   Page 19
Need Improvement (OIG-09-048)
